TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                     Processes Are Needed to Ensure That
                       Letters and Notices Are Written In
                     Compliance With the Plain Writing Act



                                     September 12, 2014

                             Reference Number: 2014-40-076




This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
 and information determined to be restricted from public release has been redacted from this document.


Phone Number / 202-622-6500
E-mail Address / TIGTACommunications@tigta.treas.gov
Website        / http://www.treasury.gov/tigta
                                                    HIGHLIGHTS


PROCESSES ARE NEEDED TO ENSURE                          generate correspondence that is sent to
THAT LETTERS AND NOTICES ARE                            taxpayers.
WRITTEN IN COMPLIANCE WITH THE                          In addition, the process for reviewing letters and
PLAIN WRITING ACT                                       notices does not always ensure that they are
                                                        written in plain language. Our evaluation of
                                                        statistically valid samples of 18 letters and
Highlights                                              38 notices that were revised or redesigned
                                                        during Fiscal Year 2013 identified that
Final Report issued on                                  nine (50 percent) of the letters and 25
September 12, 2014                                      (66 percent) of the notices are not clearly written
                                                        and structured or do not provide sufficient
Highlights of Reference Number: 2014-40-076             information.
to the Internal Revenue Service Deputy
                                                        Lastly, the IRS has not established a process
Commissioner for Services and Enforcement.
                                                        that details specific revisions considered or
IMPACT ON TAXPAYERS                                     made in response to recommendations by a
                                                        contractor hired to assist in the redesign and
Congress enacted the Plain Writing Act of 2010          development of IRS correspondence.
to enhance citizen access to Government
information and services by ensuring that               WHAT TIGTA RECOMMENDED
Government documents issued to the public are
                                                        TIGTA recommended that the IRS 1) develop a
written clearly. The IRS mails more than
                                                        process to identify the universe of letters and
200 million letters and notices each year to
                                                        notices used by the IRS, 2) ensure that its
individual and business taxpayers to help them
                                                        technical writers have sufficient formal training
understand and meet their tax obligations.
                                                        on the Federal Plain Language Guidelines,
WHY TIGTA DID THE AUDIT                                 3) ensure that the managers’ quality review
                                                        process includes confirming the revised letter or
Taxpayers may experience burden when they               notice is reviewed for plain writing, and
cannot understand the actions they are asked to         4) develop a process to document corrective
take or the taxes assessed in IRS letters and           actions considered and taken to address its
notices. These individuals may have to visit a          contractor’s recommendations.
Taxpayer Assistance Center or call the IRS’s
Customer Service line, both of which have               The IRS agreed with three recommendations
experienced reduced resources. This audit was           and stated that writers and reviewers are
initiated to assess IRS processes and                   provided extensive on-the-job training and a
procedures to ensure that letters and notices are       training course was assigned to the writing staff.
in compliance with the Plain Writing Act.               In addition, the IRS plans to implement
                                                        procedures to retain documentation that
WHAT TIGTA FOUND                                        confirms letters and notices have been reviewed
                                                        under plain writing guidelines and establish
The IRS has taken a number of actions to
                                                        processes to track the status of contractor
implement requirements of the Plain Writing Act.
                                                        recommendations.
However, processes have not been developed
to identify the universe of letters and notices the     The IRS disagreed with the recommendation to
IRS can issue to taxpayers. IRS officials               identify the universe of letters and notices used
indicated that they initiated an effort to attempt      by the IRS and stated that implementing the
to identify a master list of all letters and notices,   recommendation would use the limited
but the high volume of IRS letters and notices          resources and staffing of the OTC for a result
makes identifying the total population difficult.       that would provide limited value. TIGTA
Further complicating efforts is that there are 44       continues to believe that identifying all letters
different systems that business functions use to        and notices is an effort that the IRS should once
                                                        again resume.
                                                DEPARTMENT OF THE TREASURY
                                                     WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                             September 12, 2014


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR SERVICES AND
                ENFORCEMENT


 FROM:                           Michael E. McKenney
                                 Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – Processes Are Needed to Ensure That Letters
                                 and Notices Are Written in Compliance With the Plain Writing Act
                                 (Audit # 201340006)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) has developed processes and procedures to ensure that letters and notices are in
 compliance with the Plain Writing Act of 2010.1 This audit was included in our Fiscal
 Year 2013 Annual Audit Plan and addresses the major management challenge of Providing
 Quality Taxpayer Service Operations.
 Management’s complete response to the draft report is included in Appendix VI.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. If you have any questions, please contact me or Russell Martin, Acting
 Assistant Inspector General for Audit (Returns Processing and Account Services).




 1
     Pub. L. No. 111–274, 124 Stat. 2861.
                       Processes Are Needed to Ensure That Letters and Notices Are
                             Written In Compliance With the Plain Writing Act




                                              Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          The Internal Revenue Service Has Taken a Number
          of Actions to Implement Requirements of the Plain
          Writing Act ................................................................................................... Page 4
          Processes Have Not Been Developed to Identify the
          Universe of Letters and Notices That Can Be Issued
          to Taxpayers .................................................................................................. Page 5
                    Recommendation 1:........................................................ Page 6

          The Process to Review Letters and Notices at the
          Request of Business Functions Does Not Always
          Ensure That They Are Written in Plain Language........................................ Page 7
                    Recommendation 2: ....................................................... Page 11

                    Recommendation 3: .................................................................. Page 12

          A Process Was Not Established to Document and
          Address Corrective Actions Recommended by the
          Contractor Hired to Review Letters and Notices .......................................... Page 12
                    Recommendation 4:........................................................ Page 12


Appendices
          Appendix I – Detailed Objectives, Scope, and Methodology ....................... Page 14
          Appendix II – Major Contributors to This Report ........................................ Page 17
          Appendix III – Report Distribution List ....................................................... Page 18
          Appendix IV – Outcome Measure ................................................................ Page 19
          Appendix V – IRS Letters and Notices Evaluated........................................ Page 20
          Appendix VI – Management’s Response to the Draft Report ...................... Page 23
        Processes Are Needed to Ensure That Letters and Notices Are
              Written In Compliance With the Plain Writing Act




                       Abbreviations

CP               Computer Paragraph
CROPP            Core Repository of Published Products
IMF              Individual Master File
IRS              Internal Revenue Service
OTC              Office of Taxpayer Correspondence
TIGTA            Treasury Inspector General for Tax Administration
                    Processes Are Needed to Ensure That Letters and Notices Are
                          Written In Compliance With the Plain Writing Act




                                           Background

On October 13, 2010, Congress enacted the Plain Writing Act of 20101 to improve the
effectiveness and accountability of Federal agencies’ written communications. It requires
Federal agencies to write “clear Government communication that the public can understand and
use.” For example, it requires the IRS to use plain language to provide:
         Information about any Federal Government benefit or service.
         Instructions to get any Federal Government benefit or service or to file taxes.
         Instructions to comply with any requirement administered or enforced by the Federal
          Government.
The Office of Management and Budget issued Final Guidance on Implementing the Plain
Writing Act of 2010,2 which suggested that agencies consider the subject expertise of their
intended audiences. In response, the IRS identified that it has two audience types:
         General Public – taxpayers or other stakeholders who are not trained tax specialists.
          Most IRS communications aimed at this group provide information about new or updated
          tax law, instruct them about how to be compliant, or facilitate the gathering of tax
          information. Typically, this group has not received training to acquire the “subject
          expertise” needed to understand regulatory language. The plain language used for this
          group needs to be clear, simple, and meaningful. The general public includes
          stakeholders such as individual taxpayers, small business owners, and volunteer groups.
         Tax/Legal Professionals – specialists trained to be familiar with tax-related regulatory
          language. In addition to the communications targeted to the general public, Internal
          Revenue Service (IRS) communications for tax/legal professionals include interpretation
          of complex tax law requiring the use of regulatory language for legal clarity. The
          stakeholders in this group include third-party tax preparers, enrolled agents, attorneys,
          certified public accountants, employee plan administrators, members of Congress, and
          congressional staff. The plain language used for this group may include specialized
          terminology familiar to these professionals while still being clear and meaningful.
The IRS mails more than 200 million letters and notices each year to individual and business
taxpayers to help them understand and meet their tax obligations. Figure 1 provides examples of




1
    Pub. L. No. 111–274, 124 Stat. 2861.
2
    Office of Management and Budget, Memorandum M-11-15 (April 13, 2011).
                                                                                              Page 1
                       Processes Are Needed to Ensure That Letters and Notices Are
                             Written In Compliance With the Plain Writing Act



the six letters and notice types issued most often to individual taxpayers in Fiscal Year3 2013
along with the volumes issued.
      Figure 1: Letter and Notice Types Issued Most Frequently to Individual Taxpayers

                                              Letter                                                   Notice
                Letter Type                                            Notice Type
                                             Volume                                                    Volume

    Letter 2645C, Interim Letter4           3,328,353      CP 521, Installment Agreement              26,073,860
                                                           Reminder Notice
    Letter 2273C, Installment Agreement     1,717,618      CP 49, Overpayment Adjustment –             6,641,738
    Accepted; Terms Explained                              Offset

    Letter 2644C, Second Interim            1,613,807      CP 14, Balance Due $5 or More,              6,627,890
    Response                                               No Math Error
    Letter 4314C, Automated                 1,459,915      CP 504, Final Balance Due Notice            4,916,946
    Underreporter Interim Letter

    Letter 4458C, Second Installment        1,288,395      CP 523, Installment Agreement               4,154,184
    Agreement Skipped                                      Default Notice

    Letter 3217C, Installment Agreement     1,206,137      CP 503, IMF 2nd Balance Due Notice          3,877,127
    Accepted – Terms Explained
Source: Service-wide Notice Information Program. CP = Computer Paragraph; IMF = Individual Master File.

The Office of Taxpayer Correspondence (OTC) is the hub for correspondence
services
The IRS Wage and Investment Division’s OTC was created in April 2010, and is the IRS’s hub
for comprehensive correspondence services—from design and development to measuring the
effectiveness and downstream effect of the correspondence. The OTC partners with IRS
business functions in an effort to provide consistency, quality, and plain language for letters and
notices, with the goal of providing correspondence that helps taxpayers take the appropriate
action to resolve their tax issues. Key OTC responsibilities include correspondence creation and
revision, data collection, and implementation of IRS correspondence standards, procedures, and
policies. The business functions are responsible for the content of the letters and notices, with
the OTC being responsible for ensuring that the correspondence is clear and written in plain
language.
To obtain OTC services, the OTC developed a process for business functions named the
“Green Button” process, wherein the business function accesses the OTC’s internal website and
submits a draft of a new or revised letter or notice to an OTC customer accounts management

3
  Any yearly accounting period, regardless of its relationship to a calendar year. The Federal Government’s fiscal
year begins on October 1 and ends on September 30.
4
  Letter sent to notify a taxpayer that a final response from the IRS is pending.
                                                                                                             Page 2
                    Processes Are Needed to Ensure That Letters and Notices Are
                          Written In Compliance With the Plain Writing Act



representative. The OTC representative coordinates the development of new correspondence or
revisions to existing correspondence. Coordination involves the OTC representative working
with:
       Business function liaison – coordinates between the business function and the OTC.
       OTC technical writer – ensures that letters and notices are written in plain language.
       The Office of Chief Counsel – provides legal guidance for specific content that must be
        included in the letters and notices.
       Wage and Investment Division’s Media and Publications function – formats, stores, and
        manages the letters in its Core Repository of Published Products (CROPP).5
As of February 2014, there were 3,435 letters included in the CROPP. The OTC was also aware
of 474 notice templates that include 204 Individual Master File (IMF)6 notice templates and
270 Business Master File7 notice templates. Unlike letters, which use a template format to allow
IRS employees to customize information about a specific issue on the taxpayer’s tax account or
tax return, notices are automatically generated through the Master File and other systems. For
example, if a taxpayer files a tax return but did not have enough withholding and owes tax, a
notice will be automatically generated from the Master File system to inform the taxpayer of the
tax, interest, and penalties owed.
This review was performed with information obtained from the Wage and Investment Division’s
OTC and Media and Publications function in Atlanta, Georgia, during the period
September 2013 through May 2014. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective.
Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.




5
  The CROPP contains files of all official IRS forms, instructions, documents, publications, manuals, and other
products.
6
  The IRS database that maintains transactions or records of individual tax accounts.
7
  The IRS database that consists of Federal tax-related transactions and accounts for businesses. These include
employment taxes, income taxes on businesses, and excise taxes.
                                                                                                             Page 3
                    Processes Are Needed to Ensure That Letters and Notices Are
                          Written In Compliance With the Plain Writing Act




                                         Results of Review

The Internal Revenue Service Has Taken a Number of Actions to
Implement Requirements of the Plain Writing Act
In response to the enactment of the Plain Writing Act, the IRS initiated a number of actions to
address the requirements. Figure 2 provides key requirements and IRS actions to date.
                   Figure 2: Plain Writing Act of 2010 Requirements and
                   Actions Taken by the IRS to Address the Requirements

        Act Requirements                                               IRS Actions

Designate one or more senior officials      Designated the Director, Return Integrity and Correspondence
within the agency to oversee the IRS         Services, as the senior official8 responsible for overseeing
implementation of the Plain Writing          implementation. The OTC function is within the Return Integrity and
Act.                                         Correspondence Services organization.

Communicate requirements to                 Created and provided to employees an internal news article outlining
employees and train the employees in         the Plain Writing Act requirements.
plain writing.
                                            Developed employee Plain Writing Act training.
                                            Created and published a Plain Writing Act toolkit for use by employees.
                                             The toolkit is available to all employees on the IRS’s intranet site.

Establish a process for overseeing the      Created the Plain Writing Act of 2010 Editorial Board in June 2011 to
ongoing compliance of the IRS with           provide oversight and serve as a forum for collaboration among the
the Plain Writing Act requirements.          IRS business functions. The board also oversaw the Plain Writing Act
                                             Working Group, which was formed to develop a review process for
                                             covered documents but is currently inactive.

Explain the specific types of agency        Identified the two intended audience types for IRS communications as
communications and take into account         being the general public and tax/legal professionals.
the subject matter expertise of the
intended audience.                          Identified the principal type of communication produced by the IRS as
                                             Correspondence (e.g., letters and notices).

Source: The Plain Writing Act and Treasury Inspector General for Tax Administration (TIGTA) analysis of the IRS
Plain Writing Act Compliance Report dated April 13, 2013.




8
 IRS officials informed us at the end of our review that in December 2013 the Chief, Communications and Liaison,
was designated as the senior official responsible for overseeing implementation.
                                                                                                             Page 4
                   Processes Are Needed to Ensure That Letters and Notices Are
                         Written In Compliance With the Plain Writing Act



In addition, the IRS annually updates and makes available on its website (www.IRS.gov) the IRS
Plain Writing Act Compliance Report. The first report was published July 13, 2011. This report
details the IRS’s continued efforts to comply with the Plain Writing Act along with other
information regarding this initiative. The IRS also provides a link that can be used by the public
to provide feedback on its letters and notices and to notify the IRS if there is a letter or notice
that they believe has not been written in plain language.
Although the IRS has taken a number of actions to implement the requirements of the
Plain Writing Act, processes have not been developed to identify the universe of letters and
notices that the IRS issues to taxpayers. In addition, for the correspondence that has been
reviewed or revised by the OTC, the process is not effective to ensure that the correspondence is
written in compliance with the act. The IRS needs to take additional actions to ensure that
taxpayers understand the instructions and actions they are asked to take in letters and notices in
an effort to comply with the first right in the IRS’s newly updated Taxpayer Bill of Rights9 – The
Right to Be Informed:
        Taxpayers have the right to know what they need to do to comply with the tax laws.
        They are entitled to clear explanations of the laws and IRS procedures in all tax forms,
        instructions, publications, notices, and correspondence. They have the right to be
        informed of IRS decisions about their tax accounts and to receive clear explanations
        of the outcomes.

Processes Have Not Been Developed to Identify the Universe of
Letters and Notices That Can Be Issued to Taxpayers
Processes and procedures have not been developed to compile an accurate and complete
inventory of all letters and notices used to correspond with taxpayers by the IRS’s business
functions. As a result, the OTC does not have a list of all the letters and notices that can be sent
to taxpayers by the business functions. OTC officials indicated that they initiated an effort to
identify a master list of all letters and notices in February 2011, but the high volume of IRS
letters and notices makes identifying the total population difficult. Further complicating OTC
efforts is that there are 44 different systems that business functions use to generate
correspondence to taxpayers. The OTC is unable to identify all the system business owners or
the types or volumes of letters and notices that are generated and issued from these systems.
In response to our request for a list of IRS letters and notices, the OTC provided us with a partial
list of letters and notices and cautioned us that the list was not reconciled with all known letters
and notices. The OTC indicated that the list was compiled to detail document types (e.g., letter,
notice, publication) rather than a list of all correspondence covered by the Plain Writing Act.
Our review confirmed that the information compiled could not be associated with specific letters

9
  IRS News Release IR-2014-72, IRS Adopts "Taxpayer Bill of Rights"; 10 Provisions to be Highlighted on IRS.gov,
in Publication 1 (June 10, 2014). See also Publication 1 (Rev. 6-2014), Your Rights as a Taxpayer (June 2014).
                                                                                                         Page 5
                    Processes Are Needed to Ensure That Letters and Notices Are
                          Written In Compliance With the Plain Writing Act



or notices. For example, for the Tax Forms and Publications function, the list states “1,100
documents” but does not include information that identifies each specific document or whether it
is a form, publication, letter, or other document type.
Further, our review of the CROPP, which is used to store and manage information about letters
issued from different computer systems, found that this system was also incomplete as to the
letters being stored. For example, we reviewed letters issued to taxpayers from two IRS
functions—the Taxpayer Advocate Service10 and the Small Business/Self-Employed Division’s
Examination function11—and found that 10 (91 percent) of the 11 letters used by the Taxpayer
Advocate Service and 27 (23 percent) of the 120 letters used by the Examination function were
not stored or controlled in the CROPP.
The IRS did initiate some actions to ensure that letters and notices are written in plain language.
For example, the Plain Writing Act Editorial Board was established to provide oversight and
serve as a forum for collaboration among IRS business functions. The board oversaw the Plain
Writing Act Working Group, which was formed to develop a review process for letters and
notices. The working group included members from nine business functions that met throughout
Calendar Year 2012. Accomplishments included the development of a draft Form 14481, Plain
Language Checklist and Review Sheet, which was intended to be used by the working group to
track the review of new and substantially revised letters and notices. However, working group
officials informed us that they stopped meeting after December 2012. It should be noted that
working group officials indicated that, during the time the group was in existence, no letters or
notices were reviewed.
OTC officials stated their office never intended to ensure that all IRS letters and notices were in
compliance with the Plain Writing Act. Instead, the OTC has concentrated efforts on those
letters and notices most frequently issued to taxpayers. The OTC focus is to review, revise, and create
letters and notices only from the business functions that request these services using the
Green Button process. This position is supported by the Wage and Investment Division
Commissioner’s August 20, 2010, memorandum to IRS business functions. The memorandum
announced the creation of the Green Button process six weeks prior to passage of the
Plain Writing Act.

Recommendation
Recommendation 1: The Deputy Commissioner for Services and Enforcement should
develop a process to identify the universe of letters and notices used by IRS business functions.




10
   The Taxpayer Advocate Service ensures that every taxpayer is treated fairly and that taxpayers know and
understand their rights. It offers taxpayers free help with IRS problems that they cannot resolve on their own.
11
   The Examination function conducts examinations of small business and self-employed taxpayers.
                                                                                                              Page 6
                    Processes Are Needed to Ensure That Letters and Notices Are
                          Written In Compliance With the Plain Writing Act



         Management’s Response: The IRS disagreed with this recommendation. The IRS
         stated that implementing the recommendation would use the limited resources and
         staffing of the OTC for a result that would provide limited value and is not required under
         the Plain Writing Act. The IRS also stated that existing documents do not become
         covered documents under the act until they are substantially revised and the OTC instead
         concentrates efforts on those letters and notices most frequently issued to taxpayers and on
         new or substantially revised documents that business functions submit for review through
         the Green Button process. The OTC provides feedback to ensure that these documents
         comply with the act, meet business needs, and comply with other statutory requirements.
         Office of Audit Comment: We continue to believe that identifying all letters and
         notices is an effort that the IRS should once again resume. As we noted in our report, in
         February 2011 the IRS initiated an effort to identify a master list of all letters and notices
         that the IRS sends to taxpayers. However, the IRS never completed this effort. With the
         recent publication of the Taxpayer Bill of Rights, the IRS states that taxpayers are
         entitled to clear explanations of the laws and IRS procedures in all notices and
         correspondence. Without an inventory of all letters and notices used by the IRS to
         correspond with taxpayers, we question how the IRS will ensure that it is meeting the
         intent of the first right – the Right to be Informed.

The Process to Review Letters and Notices at the Request of
Business Functions Does Not Always Ensure That They Are Written in
Plain Language
The IRS’s Green Button process does not ensure that letters and notices are written in plain
language. Our evaluation of a statistically valid sample12 of 18 letters and 38 notices from the
579 letters and 138 IMF notices that were revised or redesigned under the Green Button process
during Fiscal Year 2013 identified:
        9 (50 percent) of the 18 letters are not clearly written and structured or do not provide
         sufficient information.
        25 (66 percent) of the 38 notices are not clearly written and structured or do not provide
         sufficient information.




12
  We selected a statistical sample from the population of 579 letters using a 95 percent confidence level, a
±10 percent precision rate, and a 5 percent error rate. We selected a statistical sample from the population of
138 notices using a 90 percent confidence level, a ±5 percent precision rate, and a 5 percent error rate.
                                                                                                                  Page 7
                   Processes Are Needed to Ensure That Letters and Notices Are
                         Written In Compliance With the Plain Writing Act



To evaluate the letters and notices, we used the Federal Plain Language Guidelines,13 issued
March 2011, by the Plain Language Action and Information Network.14 The OTC stated that
these are the same guidelines it uses when reviewing letters and notices. In fact, the OTC used
these guidelines to develop its Plain Language Checklist and Review Sheet in April 2013. The
Federal Plain Language Guidelines requires that correspondence adhere to the following
criteria:
        Clearly written for the intended audience with the use of short, simple words.
         Technical jargon should be limited.
        Contain headings that are organized, specific, and easy to follow.
        Contain sufficient information to ensure that the reader knows what the agency wants
         him or her to do.
        Organized by stating the document’s purpose and its bottom line. Eliminate filler and
         unnecessary content. Put the most important information at the beginning and include
         background information (when necessary) toward the end.
        Contain short sections to make content easier for the reader to comprehend the message.
For most of the letters and notices we reviewed, we identified more than one deficiency. Figure
3 provides the deficiencies we found in nine letters we identified as not being written in clear,
sufficient language.
                           Figure 3: Deficiencies in Letters Reviewed

                    Deficiency in Letter                              Number of Letters

                    Content is not clear.                                        6

                    Headings needed for structure.                               6

                    Insufficient information provided.                           3

                    Insufficient organization of content.                        2

                   Source: TIGTA analysis of IRS letters.

Figure 4 provides the deficiencies we found in 25 notices we identified as not being written in
compliance with the Federal Plain Language Guidelines.



13
   Plain Language Action and Information Network (PLAIN), Federal Plain Language Guidelines, March 2011
(Rev. 1) (May 2011).
14
   The Office of Management and Budget provides a link in its Memorandum M-11-15 to the Plain Language Action
and Information Network (http://www.plainlanguage.gov/) and cites this source as the official interagency working
group in issuing plain writing guidance.
                                                                                                         Page 8
                Processes Are Needed to Ensure That Letters and Notices Are
                      Written In Compliance With the Plain Writing Act



                       Figure 4: Deficiencies in Notices Reviewed

                 Deficiency in Notice                        Number of Notices

                 Content is not clear.                                25

                 Insufficient information provided.                   17

                 Not written for average audience.                    14

                 Insufficient organization of content.                 4

                Source: TIGTA analysis of IRS notices.

Below are examples of letters and notices we reviewed that are not in compliance with the
Federal Plain Language Guidelines:
      Letter 3570, Notice of final determination as provided in Internal Revenue Code (IRC)
       Section 7479 that extension of time for payment under IRC Section 6166 has ceased to
       apply. Letter is unclear and provides insufficient information as it informs the taxpayer
       that the IRS denied his or her request for an extension of time to pay but does not explain
       the consequences to the taxpayer. Moreover, the letter does not explain the penalty and
       interest that the IRS will assess if the taxpayer does not pay the amount due. The letter
       also omits the IRS’s header logo, which is needed to provide assurance that the letter is in
       fact from the IRS.
      Letter 3640, Taxpayer Lien Payoff. The content of the letter is not clear because of the
       insufficient organization of the information. For example, the letter states, in the opening
       callout on the first page, “We previously filed notice(s) of Federal Tax Lien on the tax
       liabilities listed under ‘Notices of lien on your tax debt’ below.” The ‘Notices of lien on
       your tax debt’ is actually provided on the second page, not on the first page below the
       callout. The callout also states that “These liabilities are listed under ‘Other tax debt’
       below.” Again, the liability amounts are not listed on the first page below the callout.
       The amounts are actually listed on the third page. The letter is also unclear as to which
       amounts must be paid to have the lien(s) on his or her property released. There are two
       amounts specified in the notice—the taxpayer’s total tax debt and the amount the
       taxpayer must pay for the IRS to release the tax lien.
      Notice 12F, Exam Coded Math Error Overpayment of $1 or More. The notice is unclear
       and provides insufficient information. For example, the notice informs the taxpayer that
       he or she is getting a refund. However, under the “What you need to do” section, rather
       than addressing the refund, the language details the taxpayers’ rights and obligation to
       pay additional tax. The language reads:
              … if you are unable to provide us additional information that justifies the reversal
              and we believe the reversal is in error, we will forward your case for audit. This

                                                                                             Page 9
                       Processes Are Needed to Ensure That Letters and Notices Are
                             Written In Compliance With the Plain Writing Act



                     step gives you formal appeal rights, including the right to appeal our decision in
                     court before you have to pay the additional tax. ... if you do not contact us within
                     60 days, the change will not be reversed and you must pay the additional tax.
           Notice 503, IMF 2nd Balance Due Notice. The notice is not written for the average
            audience and provides insufficient information. For example, the notice states, “If you
            don’t pay the amount due or call us to make payment arrangements, we can file a Notice
            of Federal Tax Lien on your property at any time, if we haven’t already done so.”
            However, the notice does not adequately explain or define a Tax Lien.15 In addition, the
            penalty and interest tables in Notice 503 do not allow the taxpayer to calculate and verify
            the assessed penalty and interest amounts.
            The IRS disagreed with our conclusion that Notice 503 is not written for the average
            audience and provides insufficient information. However, an IRS official interviewed by
            Tax Notes Today on May 16, 2012, raised similar concerns as we identified with the
            IRS’s letters and notices. In fact, the IRS official provided an example of the term “lien”
            to show the confusion that some taxpayers experience and stated that IRS customer
            service operators sometimes receive calls from people asking for a definition of that term.
IRS officials cited the complexity of the tax laws as a reason for the tax language used in letters
and notices. The officials stated that some notices have judicial uses that require specific legal
wording and this requirement can conflict with the Plain Writing Act requirement for the
documents to be written in plain language. As of January 16, 2014, the IRS reviewed/revised:
           1,220 (35 percent) of the 3,435 letters identified and controlled in the CROPP to
            determine if the letters are written in conformance with the Plain Writing Act. There was
            a total of 337 letters in a pending status, which indicates that revision or other action is
            needed and has been started but has not been completed. Business functions requested
            revisions to these 337 letters during Fiscal Year 2013.
           138 (68 percent) of the 204 IMF notices to determine if the notices are written in plain
            language.
Our assessment that the Green Button process does not ensure that letters and notices are written
in plain language results from:
           The four OTC technical writers and lead analyst we interviewed stated that they have not
            received formal training on plain language writing. IRS management stated that its
            on-the-job training for technical writers was sufficient.
           Technical writers were not provided with the Plain Language Checklist and Review Sheet
            to use in their review of letters and notices to assist in their ensuring compliance with


15
     A lien is a restriction on property or rights to property as security for outstanding taxes.
                                                                                                    Page 10
                 Processes Are Needed to Ensure That Letters and Notices Are
                       Written In Compliance With the Plain Writing Act



       plain writing. OTC management stated that it was unaware that the writers were not
       provided with the review sheet.
      Only four technical writers have been assigned the duty of reviewing the correspondence.
       The lack of technical writers results in the writers carrying an average of 125 documents
       in their inventories, and the manager often must “pitch-in” to review the letters and
       notices himself.
      The OTC has not established documentation requirements for the quality review process
       to ensure that the manager documents his quality review of correspondence revised by
       the technical writers. Without this documentation, we could not verify if the manager
       performed a quality review of the letters and notices that the technical writers revised.
When taxpayers are not provided sufficient information and/or cannot understand the actions
they are asked to take or the taxes assessed in IRS letters and notices, these individuals may have
to visit a Taxpayer Assistance Center or call the IRS’s Customer Service line, both of which
have experienced reduced resources.

Recommendations
The Deputy Commissioner for Services and Enforcement should:
Recommendation 2: Ensure that OTC writers and reviewers have sufficient formal training
on the Federal Plain Language Guidelines and use the guidelines along with the Plain Language
Checklist and Review Sheet when reviewing letters and notices for Plain Writing Act
compliance.
       Management’s Response: The IRS agreed with this recommendation and stated that
       OTC writers and reviewers are provided extensive on-the-job-training, having a
       one-on-one relationship with senior, experienced writers and reviewers during their first
       weeks/months on the job. The IRS stated that during this time, OTC writers are trained
       in the application of the Federal Plain Language Guidelines. The IRS also stated that in
       February 2014, the training course, Changing a Bureaucracy One Paragraph at a Time,
       was assigned to the writing staff as a required course. In addition, on April 24, 2014, the
       staff was reminded to use the Plain Language Checklist and Review Sheet to document
       compliance with the act when reviewing letters and notices. The IRS reinforced that
       guidance in a July 2014 meeting of the OTC writers.
       Office of Audit Comment: Although management agreed with our recommendation,
       their assessment regarding the extensiveness of the training OTC writers receive relating
       to plain language writing does not agree with what these individuals stated during our
       review. As such, we continue to believe the lack of sufficient plain writing training
       contributes to the deficiencies we noted.


                                                                                           Page 11
                 Processes Are Needed to Ensure That Letters and Notices Are
                       Written In Compliance With the Plain Writing Act



Recommendation 3: Ensure that the OTC manager’s Green Button quality review process
includes confirming that letters or notices are reviewed for plain writing and documentation is
maintained supporting these reviews.
       Management’s Response: The IRS agreed with this recommendation. The IRS
       indicated that procedures will be implemented to require and retain documentation that
       confirms letters and notices have been reviewed under plain writing guidelines, as part of
       the Green Button quality review process.

A Process Was Not Established to Document and Address Corrective
Actions Recommended by the Contractor Hired to Review Letters and
Notices
The IRS has not established a process that details specific revisions considered or made in
response to recommendations by a contractor hired to assist in the redesign and development of
IRS correspondence. For example, the IRS does not maintain documentation that identifies the
content of the original letter or notice provided to the contractor for review and ultimately what
revisions were made. Without this information, the IRS cannot measure the effectiveness of the
use of the contractor and does not have assurance that tax administration and taxpayers benefit
from the contractor’s services.
The IRS retained a contractor for Fiscal Years 2010 through 2014 to assist in redesigning letters
and notices in an effort to create clear, consistent taxpayer correspondence. The contract
specifies that the contractor would develop and redesign letters and notices and assist in the
development of new notices. To date, the contractor has provided the IRS with about
75 recommendations from its “simplification lab” activities that engage the public to provide
feedback on IRS correspondence. For example, the IRS requested that the contractor review the
CP 2000, Request for Verification of Unreported Income, Payments, or Credits, notice. The
contractor reviewed the notice and provided recommended revisions back to the IRS.
OTC officials attributed the lack of documentation to the complex “give and take” process with
business functions that prohibits correlation between the contractor’s recommendations and IRS
corrective actions. IRS officials informed us that $3.1 million was paid to the contractor for an
“overhaul of the notice process.” The cost associated with the simplification lab activities
accounted for $299,334 of the total $3.1 million.

Recommendation
Recommendation 4: The Deputy Commissioner for Services and Enforcement should
develop a process to document IRS corrective actions considered and taken to address the
contractor recommendations.



                                                                                           Page 12
        Processes Are Needed to Ensure That Letters and Notices Are
              Written In Compliance With the Plain Writing Act



Management’s Response: The IRS agreed with this recommendation. The IRS will
establish processes to document and track the status of contractor recommendations.




                                                                            Page 13
                     Processes Are Needed to Ensure That Letters and Notices Are
                           Written In Compliance With the Plain Writing Act



                                                                                         Appendix I

            Detailed Objective, Scope, and Methodology

Our overall objective was to determine whether the IRS developed processes and procedures to
ensure that letters and notices are in compliance with the Plain Writing Act of 2010.1
I.         Determined actions taken by the IRS subsequent to the enactment of the Plain Writing
           Act to ensure compliance with its provisions.
           A. Determined the official(s) responsible for oversight of the implementation of the act.
           B. Evaluated the IRS’s strategy to ensure that all letters and notices are in compliance
              with the act.
           C. Evaluated the IRS’s April 2013 IRS Plain Writing Act Compliance Report to ensure
              that it meets the provisions of the act.
           D. Determined if the IRS developed a plan to comply with the act.
           E. Evaluated the plan and schedule to redesign notices.
           F. Identified the letter and notice templates for letters and notices that are issued to
              taxpayers but have not been revised to comply with the act.
               1. Obtained from OTC officials the names and owners of 44 notice systems that
                  issue letters and notices to taxpayers.
               2. Determined whether the OTC has identified the letters and notices in these
                  systems that have not been revised to comply with the act.
           G. Evaluated IRS progress in revising or redesigning letters and notices since the act was
              signed on October 13, 2010.
               1. Identified the revised or redesigned IMF letters and notices.
               2. Determined the number and percentage of letters and notices that have been
                  redesigned or revised.




1
    Pub. L. No. 111–274, 124 Stat. 2861.
                                                                                                 Page 14
                 Processes Are Needed to Ensure That Letters and Notices Are
                       Written In Compliance With the Plain Writing Act



II.    Evaluated IRS processes to revise and redesign letter and notice templates to ensure
       compliance with the Plain Writing Act. We evaluated IMF standard (not customizable)
       letter and notice templates.
       A. Randomly selected a statistically valid sample of 38 standard notice templates from
          the population of 138 IMF notice templates that had been redesigned.
           1. Used an expected error rate of 5 percent, a precision rate of ±5 percent, and a
              confidence interval of 90 percent to select the sample.
           2. Evaluated the notices to determine if they were clear, professional, contain
              sufficient information, and meet the criteria of the Plain Writing Act. We used
              the Federal Plain Language Guidelines to make the evaluation. This sampling
              methodology was chosen so that we could project the number of notice templates
              that are not in compliance with the Plain Writing Act.
       B. Randomly selected a statistically valid sample of 18 standard letter templates from the
          population of 579 letter templates that had been redesigned or revised.
           1. Used an expected error rate of 5 percent, a precision rate of ±10 percent, and a
              confidence interval of 95 percent to select the sample. We oversampled to ensure
              that only English version IMF letters were sampled. We excluded Business
              Master File, Spanish version, and customizable letters. Because of the limitations
              with the CROPP, we could not determine the type of letter until we pulled the
              letter from the system and viewed the type of letter. This sampling methodology
              was chosen so that we could project the number of letter templates that are not in
              compliance with the Plain Writing Act.
           2. Evaluated the letters to determine if they are clear, contain sufficient information,
              and meet the criteria of the Plain Writing Act using the Federal Plain Language
              Guidelines.
       C. Interviewed OTC personnel to determine how the Green Button process operates.
          This process is used by functions to request letter and notice revisions.
III.   Evaluated the process and guidelines that IRS functions use to identify and submit letters
       and notices that need to be revised to the OTC, including guidelines for the Green Button
       process.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined that the
following internal controls were relevant to our audit objective: the IRS’s policies, procedures,

                                                                                            Page 15
                Processes Are Needed to Ensure That Letters and Notices Are
                      Written In Compliance With the Plain Writing Act



and guidelines used by the OTC to revise and redesign letters and notices. We evaluated these
controls by reviewing letters and notices, interviewing management, analyzing data, and
reviewing policies and procedures.




                                                                                        Page 16
                Processes Are Needed to Ensure That Letters and Notices Are
                      Written In Compliance With the Plain Writing Act



                                                                                Appendix II

                 Major Contributors to This Report

Russell P. Martin, Acting Assistant Inspector General for Audit (Returns Processing and
Account Services)
W. Allen Gray, Director
Lena Dietles, Audit Manager
Tracy Harper, Lead Auditor
Tanya Adams, Senior Auditor
Jerome Antoine, Auditor
Kathy Coote, Auditor
Nelva Usher, Auditor




                                                                                          Page 17
               Processes Are Needed to Ensure That Letters and Notices Are
                     Written In Compliance With the Plain Writing Act



                                                                             Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Wage and Investment Division SE:W
Chief, Communications and Liaison CL
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Director, Office of Professional Responsibility SE:OPR
Director, Return Preparer Office SE:RPO
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Customer Assistance, Relationships, and Education, Wage and Investment Division
SE:W:CAR
Director, Examination, Small Business/Self-Employed Division SE:S:E
Director, Media and Publications SE:W:CAR
Director, Return Integrity and Correspondence Services SE:W:RICS
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Director, Accounts Management, Wage and Investment Division SE:W:CAS:AM
Director, Office of Legislative Affairs CL:LA
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief, Program Evaluation and Improvement, Wage and Investment Division
SE:W:S:PEI
Director, Strategic Data Services IG:OI:SDS




                                                                                     Page 18
                 Processes Are Needed to Ensure That Letters and Notices Are
                       Written In Compliance With the Plain Writing Act



                                                                                 Appendix IV


                                Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective action will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
   Inefficient Use of Resources – Potential; $299,334 in contractor costs (see page 12).

Methodology Used to Measure the Reported Benefit:
The IRS paid $299,334 for a private contractor over a five-year period (Fiscal Years 2010–2014)
for taxpayer testing of IRS notice revisions. The contractor provided the IRS with about
75 recommendations from its “simplification lab” activities that engaged the public to provide
feedback about proposed IRS notice revisions. However, the IRS has no documentation to show
whether it considered or took corrective actions to address any of the contractor’s
recommendations.




                                                                                            Page 19
                   Processes Are Needed to Ensure That Letters and Notices Are
                         Written In Compliance With the Plain Writing Act



                                                                                          Appendix V

                    IRS Letters and Notices Evaluated

This appendix presents the 38 notices and 18 letters that we evaluated. The IRS issued a total of
75 million of these notices in Fiscal Year 2013 according to its Service-wide Notice Information
Program. We could not identify the specific volume of each notice issued because the IRS does
not track the volume for every notice. The IRS also does not track the volume of all letters that it
issues.
                                      Notices Evaluated

           Notice
           Number        Title

              01         Identity Theft Claim Acknowledgement

              01A        New ID Theft Notice for 2010 (Assigned 8/27/09)

              11         Math Error, Balance Due of $5 or More

              11A        EIC Math Error – Balance Due of $5 or More

              12F        Exam Coded Math Error Overpayment of $1 or More (Variant of the CP 12)

              12G        Exam Coded Math Error Overpayment of $1 or More (Variant of the CP 12)

              13A        EIC Math Error – Balance Due < $5, Overpayment < $1

             13M         Making Work Pay/Government Retiree Credit Computed, Even Balance

              14         Balance Due $5 or More, No Math Error

              14I        Balance Due $5 or More, No Math Error (IRAF)

              20F        Audit/Unallowable Items Notice, Overpayment (Variant of the CP 20)

              21B        Data Processing Adjustment Notice, Overpayment of $1 or more

              21C        Data Processing Adjustment Notice, Balance Due < $5, Overpayment

              21E        Examination Adjustment Notice

              22I        Data Processing Adjustment Notice (IRAF)

              23         ES Discrepancy, Balance Due of $5 or More

              27         EIC Potential for T/P Without Qualifying Children

              30         Estimated Tax Penalty Notice



                                                                                                  Page 20
             Processes Are Needed to Ensure That Letters and Notices Are
                   Written In Compliance With the Plain Writing Act



     Notice
     Number         Title

        31          Undelivered Refund Notice

        42          Secondary SSN Offset Notice

        49          Overpayment Adjustment – Offset

        54B         Inquiry Regarding Name and SSN – Refund Delayed

        54E         Inquiry Regarding Name and SSN on ES Tax Payments

        59          First Notice – Return Delinquency

        60          Credit Reversal Adjustment Notice

       71C          Reminder Notice – Balance Due

       75C          Denial of EIC

        77          Final Notice – Notice of Intent to Levy and right to a Hearing AKPFD

        503         IMF 2nd Balance Due Notice

        504         Final Balance Due Notice

       504B         Final BMF Balance Due Notice

        521         Installment Agreement Reminder Notice

        523         Installment Agreement Default Notice

        566         ITIN Suspense Notice

       2000         Request for Verification of Unreported Income, Payments, or Credits

       2006         Automated Underreporter Interim Acknowledgement Notice

       2057         Check Your Records to Confirm the Income You Received

      2566R         ASFR 30-Day proposed Assessment, Refund Hold
Source: Our review of IRS notices. Note: ID = Identification. EIC = Earned Income Credit.
IRAF = Individual Retirement Account File. ES = Estimated Tax. T/P = Taxpayer. SSN = Social Security
Number. AKPFD = Alaska Permanent Fund Dividend Levy Program. BMF = Business Master File.
ITIN = Individual Taxpayer Identification Number. ASFR = Automated Substitute for Return.




                                                                                             Page 21
              Processes Are Needed to Ensure That Letters and Notices Are
                    Written In Compliance With the Plain Writing Act



                                     Letters Evaluated

    Letter
                 Title
   Number

    1220-A       Docketed Case Decision Document Transmittal – No Amount Due

                 Notice of Determination As Provided in IRC Section 7479 That Extension of Time
     3570
                 for Payment Under IRC Section 6166 Has Ceased to Apply

     3640        Taxpayer Lien Payoff

     3708        Notice and Demand for Payment of FBAR Penalty

     4087        Streamlined Non-Resident, Non-Filer Program Missing Information

     4141        Uniform Acknowledgement Letter

     4339        Statutory Notice of Deficiency – More Information

     4569        Taxpayer Advocate Service Customer Satisfaction Survey – Prenote

     4680        AM Pre-notification Letter for Survey Form 13257-F

     4975        W&I AUR Customer Satisfaction Survey – First Notification

     4977        SBSE CCE Customer Satisfaction Survey – Prenote

     4995        Missing Tax Return (Payment Card Information)

     5061        Dual Citizenship High Risk Streamlined Letter

    5071-C       Potential Identity Theft During Original Processing with Online

     5081        Form SS-8 Determination of Employment Status Courtesy Letter – Employee

     5163        Individual Taxpayer Burden Survey – Contact 7 with Web

     5208        Notification of Appeals Referral Investigation

     5246        Contractor Determination

Source: Our review of IRS letters. Note: IRC = Internal Revenue Code. FBAR = Report of Foreign Bank and
Financial Account. W&I = Wage and Investment. AUR = Automated Underreporter. SBSE = Small Business/
Self-Employed. CCE = Contact Center Environment.




                                                                                                  Page 22
    Processes Are Needed to Ensure That Letters and Notices Are
          Written In Compliance With the Plain Writing Act



                                                    Appendix VI

Management’s Response to the Draft Report




                                                           Page 23
Processes Are Needed to Ensure That Letters and Notices Are
      Written In Compliance With the Plain Writing Act




                                                       Page 24
Processes Are Needed to Ensure That Letters and Notices Are
      Written In Compliance With the Plain Writing Act




                                                       Page 25
Processes Are Needed to Ensure That Letters and Notices Are
      Written In Compliance With the Plain Writing Act




                                                       Page 26
Processes Are Needed to Ensure That Letters and Notices Are
      Written In Compliance With the Plain Writing Act




                                                       Page 27
    Processes Are Needed to Ensure That Letters and Notices Are
          Written In Compliance With the Plain Writing Act




 




                                                           Page 28
